          Office of Audits
          Office of Inspector General
**
          U.S. General Services Administration


IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
Audit of Management Controls
Within the Network Services Division
Pacific Rim Region,
Federal Acquisition Service
Report Number A110100/Q/9/P12009
Dated May 30, 2012
Assignment Number A130113
February 5, 2014




A130113
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            February 5, 2014
 TO:              Ruth F. Cox
                  Regional Administrator (9A)




 FROM:            Perla Corpus
                  Audit Manager
                  Pacific Rim Field Audit Office (JA-9)
 SUBJECT:         Implementation Review of Corrective Action Plan:
                  Audit of Management Controls Within the
                  Network Services Division Pacific Rim Region,
                  Federal Acquisition Service
                  Report Number A110100/Q/9/P12009, dated May 30, 2012
                  Assignment Number A130113

We have completed an implementation review of the management actions taken in
response to the recommendations contained in the subject audit report (Appendix A).
The objective of our review was to determine whether regional management of the
Federal Acquisition Service (FAS) has taken corrective actions as outlined in the Action
Plan for the Audit of Management Controls within the Network Services Division Pacific
Rim Region. To accomplish our objective we:

   •   Reviewed the subject audit report, recommendations, and the approved action
       plan;
   •   Reviewed documentation submitted by FAS to the Office of Administrative
       Services Government Accountability Office/Inspector General Audit Response
       Division (H1C); and
   •   Held discussions with regional FAS management and personnel.

Although FAS addressed the audit recommendations in its July 30, 2012, Action Plan,
we determined that it had not taken all corrective actions. In its January 9, 2014,
response, FAS submitted a revised corrective action plan, addressing open
Recommendations 1 and 5d (Appendix B). We also included management’s written
comments in Appendix C. FAS regional management must also submit the revised
corrective action plan within 30 days to the Government Accountability Office/Inspector
General Audit Response Division (H1C).


A130113                                 1
If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

 Perla Corpus        Audit Manager           Perla.Corpus@gsaig.gov     (415) 522-2733
 Sanford Weitzner    Auditor-In-Charge       Sanford.Weitzner@gsaig.gov (415) 522-2749

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.




A130113                                  2
Background

The FAS Network Services Division (NSD) assists customer agencies on a broad range
of telecommunication solutions/services. On May 30, 2012, we issued an audit report to
FAS entitled Audit of Management Controls Within the Network Services Division
Pacific Rim Region, Federal Acquisition Service. The purpose of the audit was to
determine whether management controls within the NSD’s financial and program
operations in the Pacific Rim Region were sufficient to ensure adherence to federal
regulations and policy; and if not, determine the impact and suggest corrective action.

Our audit determined that:

   •   NSD lacks inventory control procedures.
   •   NSD lacks written procedures and management controls over contract
       administration.
   •   NSD management needs to establish effective criteria for evaluating staff
       performance.

To address the issues identified in the report, we recommended that the FAS Regional
Commissioner in the Pacific Rim Region should:

   1. Conduct a comprehensive inventory of recurring services (B1) to identify errors,
      missing transactions, and outdated or expired services.

   2. Ensure accurate accounting of the recurring services inventory by developing
      and implementing written procedures and management controls for training NSD
      employees on how to update and monitor the inventory.

   3. Take action to ensure contracting officer’s technical representatives receive all
      required acquisition training.

   4. Clearly define roles, responsibilities, and expectations for the newly appointed
      Branch Chiefs.

   5. Develop and implement written procedures in the following areas:
      a. Compliance        with   training    mandates     for  contracting     officer’s
         technical representatives.
      b. Management oversight of independent contract employees.
      c. Compliance with Fair Opportunity requirements under local services
         acquisition contracts for client requested telecommunication services.
      d. Justification to award telecommunication services under tariff agreements.
      e. Timely completion of customer orders in its Telecommunications Ordering &
         Pricing System (TOPS).

   6. Re-evaluate and revise NSD’s Associate Performance Plans to accurately reflect
      employees’ skill sets.


A130113                                 3
    7. Develop and implement a methodology to measure customer satisfaction with
       employee performance; this methodology should be included in the Associate
       Performance Plans.

The FAS Regional Commissioner of the Pacific Rim Region concurred with the audit
report findings and recommendations.

Results

Our implementation review determined that the following corrective actions have not
been taken:

    •   In response to Recommendation 1, the NSD has not fully met its corrective
        action plan. NSD’s action plan step included procuring outside support for
        auditing its TOPS inventory of recurring services for financial accuracy. The
        NSD awarded a consultant contract on February 7, 2013, that covered a 6-month
        period of performance, but did not exercise the option due to the lack of progress
        by the consultant. 1 We determined that the majority of the TOPS discrepancies
        had not been resolved. FAS indicated that a TOPS inventory audit would not be
        completed until February 2014, one year after the date of completion as stated in
        the Action Plan (Appendix A). However, NSD did not provide an updated Action
        Plan on how the remainder of the inventory inaccuracies will be resolved.
        Therefore, NSD has not fully met Recommendation 1 of the audit report.

    •   In response to Recommendation 5d, the NSD has not developed and
        implemented procedures for the justification to award telecommunication
        services under tariff agreements. Therefore, this recommendation remains
        unresolved.

Management’s Comments

FAS partially concurred with our determination regarding the consultant and a lack of an
updated Action Plan for Recommendation 1. FAS acknowledged that additional in-
house effort is needed to resolve the inventory discrepancies and submitted a revised
action plan extending the date of completion until March 31, 2015. FAS disagreed with
our assessment that the majority of TOPS inventory discrepancies had not yet been
resolved. Based on the current status, FAS indicated significant progress in correcting
TOPS inventory. However, management has not presented us with documents to
support that the majority of discrepancies have been resolved.          FAS addressed
Recommendation 5d by issuing written procedures to justify the award of
telecommunication services under tariff agreements. Management’s revised action plan


1
 Based on the Notice-to-Proceed, dated February 1, 2013, and the contract, the initial performance period
was for a 6-month base period (through July 31, 2013) valued at $500,000 with two 3-month options (at
$225,000 each) or a total contract value of $950,000.


A130113                                        4
for Recommendation 1 and its action plan for Recommendation 5d are included in
Appendix B. In addition, management’s written response is noted in Appendix C.

Action Required

The revised corrective action plan must be submitted within 30 days to the Government
Accountability Office/Inspector General Audit Response Division (H1C) showing the
new corrective actions planned.




A130113                               5
Appendix A – Action Plan for
Report Number A110100/Q/9/P12009

 Audit Report Number/Title            Recommendation Number               Completion Date
 A110100/Audit of Management                      1                       Ongoing, with Completion
 Controls within the Network                                              Scheduled February 2013
 Services Division Pacific Rim
 Region, Federal Acquisition

 Recommendation: Conduct a comprehensive Inventory of recurring services (B1) to identify errors, missing
 transactions, and outdated or expired services.

  Step    Action to be Taken Step by Step                                 Supporting              Documentation
                                                                          Documentation to         will be sent by
                                                                          Be Provided             (date)
          Procure outside support (contractors) for Subject Matter Experts                        7/24/2012
 1        (SMEs) on telecommunications and TOPS (Telecommunications Strategy and Action
          Ordering & Pricing System) for auditing the system (phone bills Plan Initiative
          and customer service records) for financial accuracy.            (SAPI) Approval-
                                                                           Attachment 2


                                                                         Deliverables/Findings
 2        TOPS Auditing (this will also address Recommendation 5)                                  2/14/2013
                                                                         a result of Contractor
                                                                         support




A130113                                               A-1
Appendix A – Action Plan for
Report Number A110100/Q/9/P12009 (cont.)
 Audit Report Number/Title            Recommendation Number              Completion Date


 A110100/Audit of Management                     2                       Ongoing, with Completion
 Controls within the Network                                             Scheduled Jan. 2013
 Services Division Pacific Rim
 Region, Federal Acquisition

    Recommendation: Ensure accurate accounting of the recurring services inventory by developing and
    implementing written procedures and management controls for training NSD employees on how to
    update and monitor the inventory.

    Step   Action to be Taken Step by Step                              Supporting            Documentation
                                                                        Documentation to       will be sent by
                                                                        Be Provided           (date)
1           Load new local services contracts and CLINS (also address   Transition Schedule
                                                                                              10/14/2012
            Recommendation 5)

2           Create standard process of updating TOPS records            TOPS Records Update 7/24/2012
                                                                        and
                                                                        Process Documents
                                                                        (various)
                                                                        -Attachments 3-7
                                                                        Transition Process
                                                                        Spreadsheet-
                                                                        Attachment 8




A130113                                              A-2
Appendix A – Action Plan for
Report Number A110100/Q/9/P12009 (cont.)

 Audit Report Number/Title          Recommendation Number               Completion Date
 A110100/Audit of Management                   3                        Completed as of July 2012
 Controls within the Network
 Services Division Pacific Rim
 Region, Federal Acquisition

 Recommendation: Take action to ensure contracting officers’ technical representatives receive all required
 acquisition training.


 Step     Action to be Taken Step by Step                               Supporting             Documentation
                                                                        Documentation to        will be sent by
                                                                        Be Provided            (date)
          Manage COR Certification Program and ensure NSD
 1        personnel meet training requirements for certification and    OFFP Certification   7/24/2012
          maintain continuing education learning points – Google        Program Memo
          document is used to track training for ATMs. Action has       available on OFFP
          been taken in June 2012 to significantly reduce and number    website and regional
          of ATMs with limited warrants.                                Directive, Issued
                                                                        5/14/2012 –
                                                                        Attachment 10.




A130113                                            A-3
Appendix A – Action Plan for
Report Number A110100/Q/9/P12009 (cont.)

  Audit Report Number/Title           Recommendation Number            Completion Date
  A110100/Audit of Management                   4                      Ongoing, with Completion November
  Controls within the Network                                          2012
  Services Division Pacific Rim
  Region, Federal Acquisition

Recommendation: Clearly define roles, responsibilities, and management’s expectations for newly appointed Branch
Chiefs.

  Step    Action to be Taken Step by Step                              Supporting            Documentation
                                                                       Documentation to       will be sent by
                                                                       Be Provided           (date)
          Re-organize NSD, Create Branches (Cross-referenced with                           7/24/2012
  1                                                                    Updated GSA, FAS,
          Recommendations 4-6)                                         NSD Organizational
                                                                       Chart – Attachment 9
          Create Branch Charter for NSD, Project Branch                Project Branch       11/14/2012
  2                                                                    Charter

  3       Create Branch Charter for NSD, Customer Care Branch          Customer Care        11/14/2012
                                                                       Branch Charter
  4       Create NSD-Specific Position Description (PD) for Branch     PD in draft form; will 11/14/2012
          Chief, Project Branch                                        be routed through
                                                                       Human Resources
                                                                       for Review/Input
  5       Create NSD-Specific Position Description (PD) for Branch     PD in draft form; will 11/14/2012
          Chief, Customer Care Branch                                  be routed through
                                                                       Human Resources
                                                                       for Review/Input




A130113                                             A-4
Appendix A – Action Plan for
Report Number A110100/Q/9/P12009 (cont.)

 Audit Report Number/Title          Recommendation Number              Completion Date
 A110100/Audit of Management                  5                        Ongoing, with Completion November
 Controls within the Network                                           2012
 Services Division Pacific Rim
 Region, Federal Acquisition


 Recommendation: Develop and implement written procedures in the following areas: (a) compliance with training
 mandate for contracting officers’ technical representatives; (b) management oversight of contract employees;
 (c) compliance with fair opportunity requirements under local services acquisition contracts for client requested
 telecommunications services; (d) justification to award telecommunications services under tariff agreements, and;
 (e) timely completion of customer orders in TOPS.


 Step    Action to be Taken Step by Step                               Supporting            Documentation
                                                                       Documentation to       will be sent by
                                                                       Be Provided           (date)
         Manage COR Certification Program and ensure NSD                                     7/24/2012
 1                                                                     OFFP Certification
         employees meet training requirements for certification and    Memo (FAC-
         continue to maintain continuous learning points – Google      COTR/COR) available
         Docs being used to track training for ATMs with access to     on OFFP website and
         employees to monitor their training in concert with           Regional Directive
         management.                                                   issued 5/14/2012 –
                                                                       Attachment 10


         Management Oversight of Contract Employees: Contractors None Required               N/A
 2       were part of National APTIS contract and provided support for
         Networx transition. This transition is complete and contract
         support for this effort has ended. No action Required to be
         taken.


 2       Create standard process for updating TOPS records and         TOPS records        7/24/2012
         other processes for proper oversight and allocation of        Update and Process
         resources.                                                    Documents (various)
                                                                       – Attachments 3-7
 3       Create process and matrices of roles/responsibilities of NSD Transition Process     7/24/2012
         employees (technical responsibilities), including knowledge of Spreadsheet –
         contracting/fair opportunity.                                  Attachment 8




A130113                                           A-5
Appendix A – Action Plan for
Report Number A110100/Q/9/P12009 (cont.)

 Audit Report Number/Title              Recommendation Number             Completion Date
 A110100/Audit of Management                       6                      Ongoing, with Completion November
 Controls within the Network                                              2012
 Services Division Pacific Rim
 Region, Federal Acquisition

 Recommendation: Re-evaluate and revise NSD’s Associate Performance Plans to accurate reflect employee’s
 skill sets

    Step   Action to be Taken Step by Step                                Supporting              Documentation
                                                                          Documentation to         will be sent by
                                                                          Be Provided             (date)
1          Create NSD-specific position descriptions (PDs) for Project    PDs (currently being
                                                                                                  11/14/2012
           Branch Chief and employees                                     developed with
                                                                          subsequent
                                                                          review/endorsement by
                                                                          Human Resources)

2          Create NSD-specific position descriptions (PDs) for Customer   PDs (currently being    11/14/2012
           Care Branch Chief and employees                                developed with
                                                                          subsequent
                                                                          review/endorsement by
                                                                          Human Resources)




A130113                                                A-6
Appendix A – Action Plan for
Report Number A110100/Q/9/P12009 (cont.)

 Audit Report Number/Title                 Recommendation Number          Completion Date
 A110100/Audit of Management                          7                   Ongoing, with Completion November
 Controls within the Network Services                                     2012
 Division Pacific Rim Region, Federal
 Acquisition Service

 Recommendation: Develop and implement a methodology to measure customer satisfaction with employee
 performance; this methodology should be included in the Associate’s Performance Plans.

    Step   Action to be Taken Step by Step                                Supporting             Documentation
                                                                          Documentation to        will be sent by
                                                                          Be Provided            (date)
1          Create NSD-specific position descriptions (PDs) for Project    Project Branch
                                                                                                   11/14/2012
           Branch employees                                               employees’ PDs
                                                                          (currently in draft form
                                                                          with pending review
                                                                          by Human Resources)
2          Create NSD-specific position descriptions (PDs) for Customer   Customer Care            11/14/2012
           Care employees                                                 Branch employees’
                                                                          PDs (currently in draft
                                                                          form with pending
                                                                          review by Human
                                                                          Resources)
3          Create and Pilot Regional Customer Survey for FAS, Region 9    Website URL            9/14/2012
           (voluntary use by employees)




A130113                                              A-7
Appendix B –Revised Corrective Action Plan for
Report Number A110100/Q/9/P12009
 Audit Report Number/Title               Recommendation Number            Proposed Recommendation Completion
                                                                          Date
 A110100/Audit of Management                       1                      Jan. 17, 2014
 Controls within the Network Services
 Division Pacific Rim Region, Federal
 Acquisition Service

 Recommendation: Conduct a comprehensive inventory of recurring services (B1) to identify errors, missing
 transactions, and outdated or expired services.

            Step    Action to be Taken Step by Step                                  Documentation
                                                                                     will be sent last
                                                                                     day of
                    Complete HI LSA2. LSA2 Transition (est. Jan. 15, 2014)           Feb. 28, 2014
            1

            2       Complete AZ NV LSA2 Transition (est. May 31, 2014)               June 30, 2014




            3       Complete CA LSA2 Transition (est. Apr. 30, 2014)                 May 31, 2014




            3       Perform fine tune all TOPS records upon completion of LSA 2      (Est. Mar 31, 2015)
                    transitions (Project depending on resource availability within
                    NSD Projects Branch)




A130113                                           B-1
Appendix B –Revised Corrective Action Plan
for Report Number A110100/Q/9/P12009 (cont.)
 Audit Report Number/Title                Recommendation Number          Completion Date
 A110100/Audit of Management                        5d                   Jan. 17, 2014
 Controls within the Network Services
 Division Pacific Rim Region, Federal
 Acquisition Service

 Recommendation: Develop and implement written procedures in the following areas: (d) justification to award
 telecommunication services under tariff agreements.


               Step   Action to be Taken Step by Step                              Documentation
                                                                                   will be sent last day
                                                                                   of
           1          Procedure sent for review by FAS Acting Regional
                                                                                   Dec. 30, 2013
                      Commissioner, NSD and AOD
           2          NSD issue final/approved version of procedure                Jan. 05, 2013

           3          NSD distributes procedure as response.                       Jan. 17, 2014




A130113                                            B-2
Appendix C – Management Comments




A130113               C-1
Appendix C – Management Comments (cont.)




A130113                C-2
Appendix C – Management Comments (cont.)




A130113                C-3
Appendix C – Management Comments (cont.)




A130113                C-4
Appendix C – Management Comments (cont.)




A130113                C-5
Appendix D – Report Distribution
Regional Administrator (9A)

Acting Regional Commissioner, Federal Acquisition Service (9Q)

Network Service Division Director, Federal Acquisition Service (9QTC)

Division Director, GAO/IG Audit Response Division (H1C)

Inspector General (J)

Deputy Inspector General (JD)

Counsel to the Inspector General (JC)

Congressional Affairs Liaison (J)

Special Assistant for Communications (J)

Assistant Inspector General for Auditing (JA)

Staff Assistant (JA)

Deputy Assistant Inspector General for Acquisition Audits (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130113                                 D-1
